IN THE SUPREME COURT OF THE UNITED STATES
X T

1NO.

Kenyon Garrett
Petitioner,
v.

United States of America
Respondent

CERTIFICATE OF SERVICE
I, Kenyon J Garrett Petitioner/ Appellant Pro Se, herby certify that on this
Seventh day of March 2021,1 sent copies of this brief to the Respondent named
below by first class postal mail.

Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-001
Attorney for the Respondent

K6nyon J Garrett
Petitioner/Appellant Pro Se
P.O. Box 132826
Tyler, TX 75713
(903) 574-0783
Kentvler88@gmail.com

a

